No. 19A174

IN THE

Supreme Court of the United States
ALEXANDER Y. USENKO, Derivatively on Behalf of the SunEdison Semiconductor
Ltd. Retirement Savings Plan,
Applicant,
v.
MEMC LLC; THE INVESTMENT COMMITTEE OF THE SUNEDISON
SEMICONDUCTOR LTD. RETIREMENT SAVINGS PLAN, HEMANT KAPADIA;
PENNY CUTRELL; STEVE EDENS; KAREN STEINER; CHENG YANG; BEN
LLORICO,
Defendants–Respondents,
And
JOHN DOES 1–10,
Defendants.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
APPLICATION FOR A 14-DAY EXTENSION OF TIME WITHIN WHICH
TO FILE A PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE EIGHTH CIRCUIT

Matthew W.H. Wessler
Counsel of Record
GUPTA WESSLER PLLC
1900 L Street, NW, Suite 312
Washington, DC 20036
(202) 888-1741
matt@guptawessler.com
Counsel for Applicant

No. 19A174
_________________________________________________
IN THE

Supreme Court of the United States
ALEXANDER Y. USENKO, Derivatively on Behalf of the SunEdison Semiconductor
Ltd. Retirement Savings Plan,
Applicant,
v.
MEMC LLC; THE INVESTMENT COMMITTEE OF THE SUNEDISON
SEMICONDUCTOR LTD. RETIREMENT SAVINGS PLAN, HEMANT KAPADIA;
PENNY CUTRELL; STEVE EDENS; KAREN STEINER; CHENG YANG; BEN
LLORICO,
Defendants–Respondents,
And
JOHN DOES 1–10,
Defendants.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
APPLICATION FOR A 14-DAY EXTENSION OF TIME WITHIN WHICH
TO FILE A PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE EIGHTH CIRCUIT
TO:

The Honorable Neil M. Gorsuch, Associate Justice of the United States
Supreme Court and Circuit Justice for the United States Court of Appeals for
the Eighth Circuit
Applicant Alexander Usenko respectfully requests an extension of 14 days within

which to file a petition for a writ of certiorari to review the judgment of the United States
Court of Appeals for the Eighth Circuit in this case, to and including October 16, 2019. The
Eighth Circuit issued its opinion on May 26, 2019. On August 7, 2019, the applicant filed an
application for an initial extension of time within which to file a petition for a writ of
certiorari, seeking an extension through November 1, 2019. On August 15, Justice Gorsuch
1

granted the application in part, extending the time to file until October 2, 2019. This
application asks for an extension of 14 days, to and including October 16, 2019. This
application is being filed on September 19, 2019—more than 10 days before the petition for
certiorari is due. See S. Ct. R. 13.5. The jurisdiction of this Court would be invoked under
28 U.S.C. § 1254(1). A copy of the Eighth Circuit’s opinion is attached.
The undersigned counsel did not represent the applicant in the district court or in
the Court of Appeals, and was retained after Justice Gorsuch granted a partial extension.
Counsel has been heavily engaged with other appellate matters, including an argument in
the First Circuit on September 9, 2019 in In re Lantus Direct Purchaser, No. 18-2086, an
argument in the D.C. Circuit on September 25, 2019 in Molock v. Whole Foods Market, Inc.,
No 18-7162, and briefs due to be filed in this Court on October 1, 2019 in Retirement Plans
Committee of IBM v. Jander, No. 18-1165, and on October 21, 2019 in Intel Corp.
Investment Policy Committee v. Sulyma, No. 18-1116. A brief extension of time is
appropriate to allow Usenko’s Supreme Court counsel, consistent with these professional
obligations, to familiarize himself with the record and to prepare and print the petition.
Respondent has previously consented to the extension of time requested by this application.
1.

This case involves an important and recurring question regarding the

Employee Retirement Income Security Act (“ERISA”), 29 U.S.C. § 1001, et seq., which is
when, and how, courts should apply the breach-of-fiduciary-duty pleading standards
articulated in Fifth Third Bancorp v. Dudenhoeffer, 573 U.S. 409 (2014). That question is
currently the subject of Jander, a case pending before this Court and set to be argued this
term. See 2019 WL 1100213 (June 3, 2019) (granting certiorari).

2

2.

In this case, the Eighth Circuit purported to apply Dudenhoeffer’s pleading

standards to dismiss breach-of-fiduciary-duty claims brought against fiduciaries for their
decision to retain an asset (another company’s stock) as a retirement investment option for
participants even after they knew or should have known that the asset was an imprudent
investment. In particular, the Eighth Circuit held that Dudenhoeffer’s analytical
framework controlled when breach-of-fiduciary-duty claims include “allegations that
ERISA fiduciaries ‘knew or should have known in light of publicly available information,
such as newspaper articles, that continuing to hold and purchase [the employer’s] stock was
imprudent.’” App. 6 (quoting Dudenhoeffer, 573 U.S. at 2471).
3.

Applying that framework here, the Eighth Circuit concluded that, “like the

plaintiffs in Dudenhoeffer,” Usenko’s complaint failed to state a claim because it included
allegations that the fiduciaries failed to “‘outperform[ ] the market based solely on their
analysis of publicly available information’” and “such allegations are insufficient to plausibly
allege that ERISA fiduciaries breached the duty of prudence.” App. 7 (holding that these
allegations could not justify a conclusion that the challenged asset “was excessively risky”
and so should have been removed). In reaching this conclusion, Eighth Circuit adopted what
it understood to be Dudenhoeffer’s “special circumstances” pleading requirement: It held
that, unless a plaintiff can “point to [a] special circumstance that rendered reliance on the
market price imprudent,” a fiduciary’s retention of a publicly-traded asset could not, as a
matter of law, constitute a breach of ERISA’s duty of prudence. App. 6.
4.

The Eighth Circuit followed what it saw as Dudenhoeffer’s framework in this

case despite several significant differences. For instance, unlike Dudenhoeffer, the theory

3

of breach here did not turn on a claim that the market price of the challenged asset was
overvalued. Compare Dudenhoeffer, 573 U.S. at 413 (explaining that the theory of the dutyof-prudence claims was that “the fiduciaries knew or should have known that Fifth Third’s
stock was overvalued”), with Usenko v. SunEdison Semiconductor LLC, 2018 WL 999982,
at *2 (explaining that the theory of breach here was not that the stock was overvalued but
rather that it constituted an “excessively risky” investment). Nor was the challenged asset
in this case the employer’s stock or included as part of an employee-owned stock ownership
(ESOP) plan, as it was in Dudenhoeffer. Compare Dudenhoeffer, 573 U.S. at 412 (explaining
that “[t]his case focuses upon th[e] duty of prudence as applied to the fiduciary of an
‘employee stock ownership plan’ (ESOP), a type of pension plan that invests primarily in
the stock of the company that employs the plan participants”), with Usenko, 2018 WL
999982, at *2 (noting that the claims here involved a challenge to the inclusion of a “stock of
a different company” and did not involve an “employee-owned stock ownership plan”). And,
unlike in Dudenhoeffer, the claims in this case included an independent failure-to-monitor
claim. See App. 8.
5.

The Eighth Circuit did not view these differences as relevant, and held that

Dudenhoeffer controlled regardless. See App. 8 (holding that these differences could not
permit a plaintiff to “evade Dudenhoeffer”). The panel saw “no indication that the Court
intended to limit Dudenhoffer to employer securities,” and so extended its application
beyond that specific context. App. 7 (holding that the complaint failed to state a claim here
because the fiduciaries were entitled to “rely on the market’s valuation of [the challenged]
stock”). And it also applied Dudenhoeffer to failure-to-monitor claims, concluding that these

4

claims were not “exempt . . . from meeting Dudenhoeffer’s pleading requirements” because,
even for a failure-to-monitor claim, a complaint must still “identify special circumstance
undermining the market price” to state a claim. App. 8 (quoting Singh v. Radio Shack Corp.,
882 F.3d 137, 147 (5th Cir. 2018) (per curiam), and rejecting any understanding of Tibble v.
Edison International, 135 S. Ct. 1823 (2018), that would “exempt” a breach-of-fiduciaryduty claim “from meeting Dudenhoeffer’s pleading requirements”).
6.

The Eighth Circuit’s decision unjustifiably expands the scope of this Court’s

decision in Dudenhoeffer while misconstruing its pleading requirements. For claims that do
not involve challenges to ESOP investments but instead challenge the retention of an
unduly risky—not overvalued—investment, Dudenhoeffer’s framework does not apply.
Were it otherwise, a fiduciary would face no consequence for the decision to retain a publicly
traded but overly risky asset in a retirement plan—even though ERISA imposes “a
continuing duty to monitor trust investments and remove imprudent ones.” Tibble, 135 S.
Ct. at 1828. That is especially true given this Court’s clear instruction that “[t]his continuing
duty exists separate and apart from the trustee’s duty to exercise prudence in selecting
investments at the outset.” Id. Dudenhoeffer, in short, did not override this core
requirement in any case where the challenged investment is publicly traded.
7.

Applicant respectfully requests a 14-day extension of time to file a petition

for a writ of certiorari seeking review of the Eighth Circuit’s ruling and submits that there
is good cause for granting the request. This Court is set to decide several related issues in
Jander, and the additional time will allow Usenko’s counsel to familiarize himself with that
case and its issues. In addition to other imminent deadlines, counsel will be presenting oral

5

argument in the D.C. Circuit on September 25, 2019 in Molock v. Whole Foods Market, Inc.,
No 18-7162 and is also counsel of record in Intel Corp. Investment Policy Committee v.
Sulyma, No. 18-1116, and will be filing the merits brief in that case on October 21, 2019.
Extending the deadline to file the petition in this case to October 16, 2019 will allow
Usenko’s counsel to carefully research and prepare the petition in this case.
CONCLUSION
For the foregoing reasons, applicant respectfully requests that the Court extend the
time within which to file a petition for a writ of certiorari in this matter to and including
October 16, 2019.
Dated: September 19, 2019

Respectfully Submitted,

Matthew W.H. Wessler
Counsel of Record
GUPTA WESSLER PLLC
1735 20th Street, NW
Washington, DC 20009
(202) 888-1741
matt@guptawessler.com
Counsel for Applicant

6

APPENDIX
App. 1

Eighth Circuit Opinion, dated May 26, 2016

United States Court of Appeals
For the Eighth Circuit
___________________________
No. 18-1626
___________________________
Alexander Y. Usenko, Derivatively on Behalf of the SunEdison Semiconductor
Ltd. Retirement Savings Plan
lllllllllllllllllllllPlaintiff - Appellant
v.
MEMC LLC; The Investment Committee of the SunEdison Semiconductor Ltd.
Retirement Savings Plan, Hemant Kapadia; Penny Cutrell; Steve Edens; Karen
Steiner; Cheng Yang; Ben Llorico
lllllllllllllllllllllDefendants - Appellees
John Does 1-10
lllllllllllllllllllllDefendants
____________
Appeal from United States District Court
for the Eastern District of Missouri - St. Louis
____________
Submitted: January 16, 2019
Filed: June 4, 2019
____________
Before BENTON, MELLOY, and KELLY, Circuit Judges.
____________
KELLY, Circuit Judge.

App.1

Appellate Case: 18-1626

Page: 1

Date Filed: 06/04/2019 Entry ID: 4793698

Alexander Usenko is a former employee of SunEdison Semiconductor, LLC
(Semi). Semi was once a wholly owned subsidiary of SunEdison, Inc. Semi made
a defined-contribution retirement savings plan available to its employees, including
Usenko, that offered SunEdison stock as a retirement investment option. On April
21, 2016, SunEdison filed for bankruptcy. In August 2017, Usenko brought suit
derivatively on behalf of the plan and, in the alternative, as a putative class action on
behalf of plan participants. Usenko claims that Semi, the investment committee of
Semi’s retirement savings plan, and the members of the investment committee
breached their fiduciary duties under the Employee Retirement Income Security Act
of 1974 (ERISA). Usenko alleges that between July 20, 2015, and April 21, 2016,
the defendants knew or should have known that SunEdison was in poor financial
condition and faced poor long-term prospects and therefore should have removed
SunEdison stock from the plan’s assets. The district court1 dismissed Usenko’s
complaint as to all defendants for failure to state a claim—other than Penny Cutrell
and Karen Steiner, who were dismissed for lack of timely service—and denied
Usenko leave to amend his complaint. Usenko appeals the dismissal for failure to
state a claim and the denial of leave to amend.2 We affirm.
I
We draw the following background from the well-pleaded factual allegations
in Usenko’s complaint, which we accept as true for purposes of the defendants’

The Honorable Audrey G. Fleissig, United States District Judge for the
Eastern District of Missouri.
1

2

Usenko does not appeal the dismissal of Cutrell and Steiner.
-2App.2

Appellate Case: 18-1626

Page: 2

Date Filed: 06/04/2019 Entry ID: 4793698

motions to dismiss.3 Park Irmat Drug Corp. v. Express Scripts Holding Co., 911 F.3d
505, 512 (8th Cir. 2018).
The plan was created in May 2014, after Semi spun off from SunEdison. The
plan made several investment options available to its participants, including a fund
that invested solely in the common stock of Semi’s former corporate parent. Usenko,
among others, elected to exercise this option and held shares of SunEdison common
stock through his individual plan account. The plan was later amended to freeze
contributions to the SunEdison stock fund. Pursuant to the amendment, effective
February 1, 2015, participants could retain their existing investments but could no
longer direct additional investments into the SunEdison stock fund.
By mid-2015, it was widely reported that SunEdison was facing liquidity
problems and was in financial distress due to an ambitious series of acquisitions. On
July 20, SunEdison issued a press release announcing that it would acquire yet
another company, Vivint Solar, Inc., for $2.2 billion. Markets reacted poorly, and
SunEdison’s stock price fell from $31.56 per share to $26.01 per share in a week. On
August 6, SunEdison issued another press release, reporting a $263 million loss in its
second quarter. That same day, the financial press warned that SunEdison had a
$10.7 billion corporate debt load and negative cash flow from operations. By the end
of the day, SunEdison’s stock closed at $17.08 per share. At the time, investor
demand for energy stocks was generally weak.
On November 10, SunEdison issued a press release reporting its third quarter
results. These results spurred more negative commentary from the financial press,
who questioned whether SunEdison would even be able to meet its existing financial
We also derive certain information from plan documents and an independent
auditor’s report dated December 31, 2014, which Usenko’s complaint refers to
directly and whose authenticity is not in question. See Dittmer Properties L.P. v.
F.D.I.C., 708 F.3d 1011, 1021 (8th Cir. 2013).
3

-3App.3

Appellate Case: 18-1626

Page: 3

Date Filed: 06/04/2019 Entry ID: 4793698

obligations. On November 18, SunEdison’s stock closed at $3.25 per share. On
January 7, 2016, SunEdison announced that it was restructuring $738 million of its
debt. That same day, the financial press reported that this decision had triggered a
massive sell-off because of its dilutive effect on investors, even though SunEdison’s
strategy would add an estimated $555 million to its liquidity. That week, shares of
SunEdison dropped roughly 30 percent, closing at $3.41.
By January 12, the financial press was reporting that SunEdison might not
survive the year, and SunEdison’s stock closed at $3.02 per share, hitting a low of
$2.36 during the day. Commentary suggested that SunEdison stock was risky due to
its generally disappointing historical performance and feeble growth in earnings per
share as well as the company’s high debt-management risk. SunEdison then twice
publicly delayed filing its annual report, stating that it needed additional time for its
audit committee to complete an internal investigation and otherwise confirm the
accuracy of its financial position.
In April, SunEdison and certain of its subsidiaries filed for bankruptcy.
SunEdison’s common stock was suspended immediately from trading at the market
opening on the New York Stock Exchange on April 21, 2016. All told, between July
20, 2015, and April 21, 2016, the market price of SunEdison stock fell from $31.66
to $0.34. As a result, those who had invested in SunEdison stock through Semi’s
retirement plan effectively lost the entire value of their investment.
In his single-count complaint, Usenko alleges that the defendants breached
their fiduciary duties. He claims that they knew or should have known that
continuing to hold SunEdison stock between July 20, 2015, and April 21, 2016, was
imprudent because SunEdison’s failing business prospects dramatically altered its
suitability as a retirement investment.

-4App.4

Appellate Case: 18-1626

Page: 4

Date Filed: 06/04/2019 Entry ID: 4793698

II
We review the district court’s decision granting a motion to dismiss for failure
to state a claim de novo, assuming all factual allegations as true and construing all
reasonable inferences in favor of the nonmoving party. Retro Television, Inc. v.
Luken Commc’ns, LLC, 696 F.3d 766, 768 (8th Cir. 2012). “To survive a motion to
dismiss, a complaint must contain sufficient factual matter, accepted as true, to ‘state
a claim to relief that is plausible on its face.’” Ashcroft v. Iqbal, 556 U.S. 662, 678
(2009) (quoting Bell Atl. Corp. v. Twombly, 550 U.S. 544, 570 (2007)). “Threadbare
recitals of the elements of a cause of action, supported by mere conclusory
statements, do not suffice.” Id. Rather, well-pleaded factual allegations must
“plausibly give rise to an entitlement to relief.” Id. at 679. That is, they must “raise
a right to relief above the speculative level.” Twombly, 550 U.S. at 555.
To prevail on a claim of breach of fiduciary duty under ERISA, the plaintiff
“must make a prima facie showing that [a] defendant acted as a fiduciary, breached
[his] fiduciary duties, and thereby caused a loss to the Plan.” Braden v. Wal-Mart
Stores, Inc., 588 F.3d 585, 594 (8th Cir. 2009).
ERISA imposes upon fiduciaries twin duties of loyalty and prudence,
requiring them to act solely in the interest of plan participants and
beneficiaries and to carry out their duties with the care, skill, prudence,
and diligence under the circumstances then prevailing that a prudent
man acting in a like capacity and familiar with such matters would use
in the conduct of an enterprise of a like character and with like aims.
Id. at 595 (cleaned up). The “prudent person standard is an objective standard that
focuses on the fiduciary’s conduct preceding the challenged decision.” Roth v.
Sawyer-Cleator Lumber Co., 16 F.3d 915, 917–18 (8th Cir. 1994) (citation omitted).
ERISA requires fiduciaries to act with prudence, not prescience, and therefore the
relevant inquiry focuses on the information available to the fiduciary at the time of
-5App.5

Appellate Case: 18-1626

Page: 5

Date Filed: 06/04/2019 Entry ID: 4793698

the relevant investment decision. Pension Benefit Guar. Corp. ex rel. St. Vincent
Catholic Med. Ctrs. Ret. Plan v. Morgan Stanley Inv. Mgmt., Inc., 712 F.3d 705, 716
(2d Cir. 2013).
In Fifth Third Bancorp v. Dudenhoeffer, 573 U.S. 409 (2014), the Supreme
Court considered how the pleading standard articulated in Iqbal and Twombly guides
the analysis of allegations that ERISA fiduciaries “knew or should have known in
light of publicly available information, such as newspaper articles, that continuing to
hold and purchase [the employer’s] stock was imprudent.” Id. at 426. In relevant
part, the complaint in Dudenhoeffer alleged that publicly available information
warned that the stock at issue was “overvalued and excessively risky” and claimed
that, under the circumstances, a prudent fiduciary would have known by July 2007
that continuing to hold the stock was imprudent. Id. at 413. Between July 2007 and
September 2009, when the complaint was filed, the stock’s price dropped by 74%,
which “eliminated a large part of the retirement savings that the participants had
invested in” the plan. Id.
The Court opined that “where a stock is publicly traded, allegations that a
fiduciary should have recognized from publicly available information alone that the
market was over- or undervaluing the stock are implausible as a general rule, at least
in the absence of special circumstances.” Id. at 426. This is because “ERISA
fiduciaries, who . . . could reasonably see little hope of outperforming the market
based solely on their analysis of publicly available information may, as a general
matter, . . . prudently rely on the market price.” Id. at 426–27 (cleaned up). In its
analysis, the Court embraced the view that a security’s price in an efficient market
reflects all publicly available information and represents the market’s best estimate
of its value in light of its riskiness and the future net income flows that those holding
it are likely to receive. See Coburn v. Evercore Trust Co., 844 F.3d 965, 969 (D.C.
Cir. 2016). Noting that the complaint at issue did not point to any special
circumstance that rendered reliance on the market price imprudent, the Court
-6App.6

Appellate Case: 18-1626

Page: 6

Date Filed: 06/04/2019 Entry ID: 4793698

remanded for the lower courts to apply its guidance in the first instance.
Dudenhoeffer, 573 U.S. at 427–30.
The similarity between Usenko’s allegations and those that the Supreme Court
deemed insufficient to plausibly state a breach of the duty of prudence in
Dudenhoeffer is undeniable. Usenko’s complaint presents a series of public
announcements by SunEdison that spurred negative commentary by the financial
press and concomitant drops in stock price. The complaint faults the defendants for
failing to act on this publicly available information and alleges that the declines in
SunEdison’s stock price and reports of SunEdison’s extraordinary debts and liquidity
problems should have prompted them to investigate and ultimately determine that
divesting from SunEdison stock would be prudent as early as July 20, 2015. It
contains no allegations that the circumstances indicated to the defendants that they
could not rely on the market’s valuation of SunEdison stock. See Singh v.
RadioShack Corp., 882 F.3d 137, 147 (5th Cir. 2018) (per curiam) (“Plaintiffs cannot
evade Dudenhoeffer’s general implausibility rule by disguising claims based on
public information as special circumstances.”). Indeed, Usenko’s allegations suggest
that SunEdison’s stock price did react to the company’s announcements and the
financial press’s negative commentary as to the company’s high debt load and
liquidity problems, among other concerns.
In sum, Usenko, like the plaintiffs in Dudenhoeffer, alleges that the defendants
breached their fiduciary duties because they failed to “outperform[] the market based
solely on their analysis of publicly available information” and to conclude that,
because SunEdison stock was excessively risky, the plan should divest from
SunEdison. Id. at 427 (cleaned up). As explained by the Supreme Court in
Dudenhoeffer, as well as several of our sister circuits examining similar claims, such
allegations are insufficient to plausibly allege that ERISA fiduciaries breached the
duty of prudence. See id; see also Kopp v. Klein, 894 F.3d 214, 218–21 (7th Cir.
2018) (per curiam) (dismissing a claim that defendants breached fiduciary duty “by
-7App.7

Appellate Case: 18-1626

Page: 7

Date Filed: 06/04/2019 Entry ID: 4793698

allowing Plan participants to invest in Idearc stock at a time when publicly available
information revealed it was not a prudent investment”); Rinehart v. Lehman Bros.
Holding Inc., 817 F.3d 56, 61, 65–68 (2d Cir. 2016) (per curiam) (dismissing a claim
that fiduciaries “permit[ted] investment in Lehman stock in the face of circumstances
arguably foreshadowing its eventual demise”). Accordingly, Usenko fails to
plausibly allege that the defendants breached the duty of prudence and dismissal for
failure to state a claim is proper.4
Usenko’s attempts to evade Dudenhoeffer are unavailing. We reject Usenko’s
argument that Tibble v. Edison International, 135 S. Ct. 1823 (2015) saves his
deficient duty-of-prudence allegations. The Supreme Court’s acknowledgment in
Tibble that an ERISA fiduciary “has a continuing duty to monitor trust investments
and remove imprudent ones,” id. at 1828, does not exempt Usenko’s complaint from
meeting Dudenhoeffer’s pleading requirements, see, e.g., Singh, 882 F.3d at 147 (5th
Cir. 2018) (per curiam) (noting that “Tibble establishes that ERISA fiduciaries have
a continuing duty to monitor the prudence of plan investments,” but nonetheless
concluding that “[b]ecause the complaint does not plausibly identify any special
circumstances undermining the market price . . . , it does not state a duty of prudence
claim based on public information”). And Usenko cannot distinguish Dudenhoeffer
on the basis that it only applies to duty-of-prudence claims in the context of employer
securities. The Court in Dudenhoeffer explicitly rejected the contention that
fiduciaries of employee stock ownership plans are entitled to a special presumption

And Usenko’s claim that the defendants also breached their co-fiduciary
obligations by knowingly participating in each other’s purported breaches cannot
“survive without a sufficiently pled theory of an underlying breach.” Brown v.
Medtronic, Inc., 628 F.3d 451, 461 (8th Cir. 2010). So dismissal of that claim was
proper, too.
4

-8App.8

Appellate Case: 18-1626

Page: 8

Date Filed: 06/04/2019 Entry ID: 4793698

of prudence. See Dudenhoeffer, 573 U.S. at 418. As such, we see no indication that
the Court intended to limit Dudenhoeffer to employer securities. See id. at 425–30.5
III
Finally, we affirm the denial of Usenko’s motion for leave to amend his
complaint because he failed to submit a proposed amended complaint with his
motion. See, e.g., In re 2007 Novastar Fin. Inc., Sec. Litig., 579 F.3d 878, 884 (8th
Cir. 2009).
Accordingly, the judgment of the district court is affirmed.
______________________________

In his reply brief, Usenko argues for the first time that his complaint survives
the defendants’ Rule 12(b)(6) motion because he also pleads that the defendants
breached their fiduciary duties by failing to diversify away from SunEdison common
stock. We ordinarily do not consider arguments raised for the first time in a reply
brief and decline to do so here. See, e.g., Viking Supply v. Nat’l Cart Co., 310 F.3d
1092, 1099 (8th Cir. 2002).
5

-9App.9

Appellate Case: 18-1626

Page: 9

Date Filed: 06/04/2019 Entry ID: 4793698

